No.

IN THE

Jsmprimw (Enixri nf tip? Mniteb
Tomas Rodriguez Infante
Petitioner,

v.

Michael Martel, Warden, and
California Department of Corrections and Rehabilitation,
Respondents.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit

CERTIFICATE OF SERVICE

I, Mark R. Drozdowski, a Deputy Federal Public Defender in the Office
of the Federal Public Defender, which was appointed as counsel for Petitioner
under the Criminal Justice Act, 18 U.S.C. ยง 3006(A)(b), and who is a member

of the Bar of this Court, hereby certifies that, pursuant to Supreme Court
Rule 29.3, on August 3, 2020, a copy of the enclosed Motion for Leave to

Proceed in Forma Pauperis, Petition for a Writ of Certiorari, Appendix, and

1

Certificate Pursuant to Rule 33 was mailed postage prepaid and
electronically mailed to:
Counsel for Respondents
Herbert S. Tetef
Deputy Attorney General
Office of the California Attorney General
300 South Spring Street, Suite 1702
Los Angeles, CA 90013
DocketingLAAWT@doj .ca. gov
Herbert.Tetef@doj.ca.gov

All parties required to be served have been served. I declare under
penalty of perjury under the laws of the United States of America that the

foregoing is true and correct.

Executed on August 3, 2020 at Los Angeles, California.

MARK R. DRO^DOWSKI*
Deputy Federal Public Defender
Attorneys for Petitioner
* Counsel of Record

2

